 \.   :\




  Department of Health and Human Servces

                OFFICE OF

           INSPECTOR GENERAL





     OXYGEN CONCENTRATOR

REIMBURSEMENT: MEDICARE AND THE

 DEPARTMENT OF VETERANS AFFAIRS

             MANAGEMENT ADVISORY REPORT




               :v'
                         Richard P. Kusserow
                         INSPECfOR GENERA

              cla   t OEI-03-91-O711
  PUROSE
  To compare amol!nts allowed by Medicare for home oxygen concentrators to the
  amounts paid by the Department of Veterans Affairs (VA).

  BACKGROUN
 The Medicare program reimburses medically necessary home oxygen under the
 authority of Section 1861(s)(6) of the Social 

                                               Security Act.   There are three tyes of
 home stationary oxygen systems: liquid , gaseous , and concentrators.

          Liquid oxygen systems provide the highest purity of oxygen. They are
          prescribed for patients requiring a large amount of oxygen , generally more
          than four liters per minute (LPM).

          Gaseous tank systems are supplied to patients who requie   only two    LPM
          rather than a continuous   flow.

          Concentrators are stationary machines which operate electronically to generate
          higher concentrations of oxygen from room atmosphere. They are
                                                                             designed
          for patients requiring continuous oxygen with a flow rate of up   to four   LPM
          and who are house-bound or have minimal portability needs.

The Omnibus Budget Reconcilation Act of 1987 (OBRA) established reimbursement
for oxygen based on a fee    schedule. The fee schedule established monthly payment
amounts for two broad categories of oxygen systems -- stationary and
                                                                        portable. By
establishing only two payment rates , OBRA bundled the varieties of
                                                                       oxygen delivery
systems , contents , and accessories into a modality neutral payment scheme.

Reimbursement for home oxygen servces represents about one- half of total
Medicare expenditures for durable medical equipment (DME). In 1989
                                                                     , Medicare
allowed $620 millon for stationary oxygen equipment and contents.

The RCF         FY 92 budget includes a proposal to reduce Medicare payments for
oxygen.

Previous Offe of Inspector General (DIG) Work

In 1987,the OIG conducted a study comparing Medicare reimbursement for home
oxygen and oxygen equipment with amounts paid by non- Medicare payers. We
found non- Medicare payers had developed cost-effective reimbursement methods for
home oxygen which resulted in monthly payments as low as one- quarter the amount
paid by Medicare.

 One of the non- Medieare payers mentioned in the report was the VA. We
 contacted 122 VA hospitals and found all paid: less than Medicare for each home
 oxygen system. The greatest difference was for oxygen concentrators.

The VA hospitals have independent authority to 

                                                                         decide   whether competitive bid

procedures , open market methods , or other alternative servces provided by the

individual hospital would be the most cost-effective. About 73 percent of the 122

hospitals contacted provided home oxygen systems through the competitive bid
process. There are currently 172 VA hospitals.

We are now identifying trends in home oxygen use. Preliminary results indicate that
oxygen concentrators were the most frequently used stationary system in 1989. We
estimate concentrators represented approximately 80 percent of the Medicare
reimbursement for oxygen and 78 percent of oxygen servces.

METHODOLOGY

We selected a random sample of 35 of the VA hospitals that had been contacted in
the 1987 review. We obtained copies of the contract Award Sheet from the VA
hospitals where contracts were competitively bid. (The contract award sheet
                                                                            lists the
amount reimbursed by the VA for each tye of system. ) Nine hospitals were not
included in our results since they owned their own oxygen equipment and contracted
only for servce on their equipment.

We also discussed oxygen procurement with VA hospital personnel. Discussions
focused on how the oxygen                          servces were provided , contracting policies
oxygen systems provided , and reimbursement costs for each system.                                , tyes of

We obtained the RCFA 1991 DME fee schedule for oxygen and oxygen equipment.
The fee schedule provides the Medicare allowed amounts for oxygen by carrier by
each State. We compared the Medicare allowed amount to the VA paid amount in
the State where the hospital was located. Generally, Medicare s outlay is 80% of the
allowed amount.

Our review focused on oxygen                         concentrators since they represent a significant
amount of Medicare services and reimbursement for oxygen.
                -j: .
 .: .. . .
                +
                !_.      ~~~~~~~~~
                         !._. ::   ~~~ ~~~~~~~~                                                                         ..

 FIING
 Medare allwed flmoun were                        more than           twe the amoun th              VA pays
 concentators.
                                                                                                 for oxyen


 Based on our 1991 sample , Medicare on the average , allowed 174 percent more than
 the VA reimburses for oxygen concentrators. Specifically, the VA average monthly
 reimbursement for an oxygen concentrator is $100. 73 while Medicare
                                                                     s average
 monthly allowance is $276.36.

 As the following chart shows ,             the VA reported a range of reimbursement rates for

 oxygen concentrators from a low of $40. 00 to a high of $175. 00 per month.

 Medicare s allowed amounts for oxygen concentrators range from $232.
                                                                                                              75 to $340. 10.

                             VARIATION IN MONTHLY REIMBURSEMENT
                                       FOR OXYGEN CONCENTRATORS

                                              (Medicare and VA)

     $ 3 5 0 r'-'--'-'-'-'-'-,-,--,-,-,-,-,-,-,--,-,-,--,-,-,--,-,-'-'-'-'-'--'-'-'-'-'-'-'--'-'-'-'-'--'





                                                                      A AA
     $300

     $250 -r 
    A AA A
                1. A
                       r---- VA --­
                                         A A                                                             A


                    i .

     $200 l
                .t       PAID AMOUNT 

     $150 +

                L_.        MEDICARE
                       i ALLOWED    AMOUNT:

               t.
     $ 100 + 



      $50
                      J._.    l._. L._    .J_.J._. l._. l._. L_. L._      J_. .J_. J.-. J._ .l._.            L._l_. J._.J._.
                                 Z Z
                                          0 0                 g x 

                                                                                      C) 0                             z z

                                                                                                    w 0 Z
                                 5rr
                                                                                                               C) x




                                  zzzzz                                                                               wo
                                          r r 
         0 I


                  Ww
                  Oz

                                   zz
                                 :: 0. W
                                   W   0.          0.
                                                                       wL:s
                                                                                                    fn


                                                  Sampled Hospitals by State

. Refers   to State where VA hospital is locted. States with more than one VA
                                                                                             hospital appear more than once.
Medicare allowances range from 59 percent to 512 percent higher than the VA
reimbursement. We found no instances where: the Medicare allowed
                                                                   amount was
less than the VA reimbursement.

CONCLUSION

Our report clearly demonstrates that the VA reimburses considerably less for
                                                                             oxygen
concentrators than Medicare. This information may be useful to HCF A
                                                                       as a point
of reference in formulating future budget proposals.
